                                                                         OFFICE OF THE
U.S. Department of Labor                                                 CHIEF FINANCIAL OFFICER

                           Office of Inspector General—Office of Audit




                                                                         MANAGEMENT ADVISORY COMMENTS IDENTIFIED
                                                                         IN AN AUDIT OF THE CONSOLIDATED FINANCIAL
                                                                         STATEMENTS
                                                                         FOR THE YEAR ENDED SEPTEMBER 30, 2011


                                                                         This report was prepared by KPMG LLP, under contract to the U.S.
                                                                         Department of Labor, Office of Inspector General, and by acceptance, it
                                                                         becomes a report of the Office of Inspector General.




                                                                                                                  U.S. Department of Labor
                                                                                                         Assistant Inspector General for Audit




                                                                                                         Date Issued: March 29, 2012 

                                                                                                      Report Number: 22-12-006-13-001 

                                                                                           Prepared by KPMG LLP
                                                       for the U.S. Department of Labor—Office of Inspector General


Table of Contents 

Executive Summary ...................................................................................................... 1


Letter to the Assistant Inspector General for Audit and the 

Chief Financial Officer ................................................................................................. 3 


Exhibit I - Comments and Recommendations ............................................................ 5
 
    1.  Preparation of the Federal Managers’ Financial Integrity Act of 1982 (FMFIA) 

        Draft Assurance Statement ................................................................................ 5 

    2. Untimely Receipt of Prepared-by-Client (PBC) Items ......................................... 8
 
    3.  Deficiencies in Grant-related Obligation and Modification 

         Controls ……………………………………………………………………………....10
 
    4.  Non-grant, Non-benefit New Obligations/Modifications.................................... 12
 
    5.  Improvements Needed in the Reconciliation and Recording of Employee 

        Benefits ............................................................................................................ 13
 
    6.  Insufficient Documentation Related to the Request for Personnel 

         Action, Standard Form 52 (SF-52) ................................................................... 15
 
    7.  Insufficient Documentation Related to the Review of Payroll Suspense 

        Reports ............................................................................................................ 16
 
    8.  Untimely Recording of Property, Plant, and Equipment (PP&E) and Lack of 

        Formal Policies and Procedures over Monitoring of Contractors ..................... 18
 
    9.  Improvements Needed over PP&E Construction-in-Process ........................... 20 

   10. 	Lack of Proper Review over the Energy Employees Occupational 

        Illness Compensation Benefits (EEOICB) Liability ........................................... 21 

   11. 	Refinement of Discount Rate Selections .......................................................... 22 

   12. 	Re-establishment of the Unemployment Compensation Advisory 

        Council ............................................................................................................. 25 

   13. 	Improvements Needed in Completion of Accounting Checklist ........................ 26 


Exhibit II - Status of Prior Year Comments ............................................................... 29
 

Appendix A .................................................................................................................. 35
 
    Acronyms and Abbreviations ............................................................................ 35
 




                                                                                      Management Advisory Comments
                                                                               For the Year Ended September 30, 2011
                                                                                     Report Number: 22-12-006-13-001
                                                  Prepared by KPMG LLP
              for the U.S. Department of Labor—Office of Inspector General




THIS PAGE IS INTENTIONALLY LEFT BLANK





                                       Management Advisory Comments
                                For the Year Ended September 30, 2011
                                      Report Number: 22-12-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General



Executive Summary
KPMG LLP (KPMG), under contract to the United States Department of Labor (DOL or
the Department) Office of Inspector General (OIG), audited the DOL’s consolidated
financial statements as of and for the year ended September 30, 2011. The audit was
conducted in accordance with auditing standards generally accepted in the United
States of America; Government Auditing Standards, issued by the Comptroller General
of the United States; and Office of Management and Budget Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. The objective of the
audit was to express an opinion on the fair presentation of DOL’s consolidated financial
statements. Additionally, other objectives included expressing an opinion on DOL’s
compliance with requirements of Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (Public Law 104-278), based on an examination.

In planning and performing the audit, DOL’s internal control over financial reporting and
DOL’s compliance with certain provisions of applicable laws, regulations, contracts, and
grant agreements that could have a direct and material effect on the fiscal year
(FY) 2011 consolidated financial statements were considered in order to determine
auditing procedures for the purpose of expressing an opinion on the consolidated
financial statements. The objective of the audit was not to provide assurance on DOL’s
internal control over financial reporting or on compliance with laws, regulations,
contracts, and grant agreements; accordingly, such opinions were not provided.
However, certain matters were noted involving (a) internal control and its operation that
were considered to be material weaknesses and significant deficiencies, and (b) an
instance of noncompliance that was considered to be material. In addition, certain other
matters were noted that were considered to be management advisory comments.

This report was prepared to provide information to management that could help in the
development of corrective actions for the management advisory comments identified in
the audit. Separate reports will be issued by the OIG to each applicable Agency Head
containing comments pertaining to the testing procedures performed over the
Department’s general and application controls over information technology (IT) systems
that support the consolidated financial statements.

Details over the material weaknesses, significant deficiencies, and instance of material
noncompliance, listed below, have been included in the Independent Auditors’ Report
found in DOL’s FY 2011 Agency Financial Report.




                                                               Management Advisory Comments
                                                        For the Year Ended September 30, 2011
                                        1                     Report Number: 22-12-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General


Material Weaknesses

1. Lack of Sufficient Controls over Financial Reporting

2. Lack of Sufficient Controls over Budgetary Accounting

3. Lack of Sufficient Security Controls over Key Financial and Support Systems

Significant Deficiencies

4. Improvements Needed in the Preparation and Review of Journal Entries

5. Weaknesses Noted over Payroll Accounting

Instance of Material Noncompliance

1. Federal Financial Management Improvement Act of 1996

Management Advisory Comments

We identified certain non-IT matters during the audit that were not considered to be
material weaknesses, significant deficiencies, or instances of material noncompliance,
which we would like to bring to management’s attention. These findings and
recommendations are presented in this report.




                                                               Management Advisory Comments
                                                        For the Year Ended September 30, 2011
                                       2                      Report Number: 22-12-006-13-001
                                                                                       Prepared by KPMG LLP
                                                   for the U.S. Department of Labor—Office of Inspector General




                            KPMG LLP
                            Suite 12000
                            1801 K Street, NW
                            Washington, DC 20006




November 14, 2011


Mr. Elliot P. Lewis, Assistant Inspector General for Audit
Mr. James L. Taylor, Chief Financial Officer
U.S. Department of Labor
Washington, D.C. 20210


Mr. Lewis and Mr. Taylor:

We have audited the consolidated financial statements of the United States Department
of Labor (DOL) for the fiscal year (FY) ended September 30, 2011, and have issued our
report thereon dated November 14, 2011. In planning and performing our audit of the
consolidated financial statements of DOL, in accordance with auditing standards
generally accepted in the United States of America, we considered DOL’s internal
control over financial reporting (internal control) as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the consolidated financial
statements but not for the purpose of expressing an opinion on the effectiveness of
DOL’s internal control. Accordingly, we do not express an opinion on the effectiveness
of DOL’s internal control. We have not considered internal control since the date of our
report.

During our audit, we noted certain matters involving internal control and other
operational matters that do not relate to information technology (IT) and are presented
for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management and have been communicated
through the issued Notifications of Findings and Recommendations, are intended to
improve internal control or result in other operating efficiencies and are summarized in
Exhibit I. These comments are in addition to the material weaknesses, significant
deficiencies, and instance of material noncompliance presented in our Independent
Auditors’ Report, dated November 14, 2011, included in DOL’s FY 2011 Agency
Financial Report. We summarized the status of all prior year comments in Exhibit II.
Comments involving internal control and other operational matters noted that relate to IT
will be presented in separate letters from the DOL Office of Inspector General (OIG) to
the appropriate Agency Heads.




                                                                                            Management Advisory Comments
                                                                                     For the Year Ended September 30, 2011
                                                       3                                   Report Number: 22-12-006-13-001
                            KPMG LLP is a Delaware limited liability partnership,
                            the U.S. member firm of KPMG International Cooperative
                            (“KPMG International”), a Swiss entity.
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General




Our audit procedures are designed primarily to enable us to form an opinion on the
consolidated financial statements, and therefore may not bring to light all weaknesses in
policies or procedures that may exist. We aim, however, to use our knowledge of DOL’s
organization gained during our work to make comments and suggestions that we hope
will be useful to you.

We would be pleased to discuss these comments and recommendations with you at
any time.

DOL’s response to the comments identified in this report is presented in Exhibit I. We
did not audit DOL’s response and, accordingly, we express no opinion on it.

This communication is intended solely for the information and use of DOL’s
management and the DOL OIG, and is not intended to be and should not be used by
anyone other than these specified parties.

Very truly yours,




                                                               Management Advisory Comments
                                                        For the Year Ended September 30, 2011
                                        4                     Report Number: 22-12-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I



Comments and Recommendations 

1. Preparation of the Federal Managers’ Financial Integrity Act of 1982 (FMFIA) Draft
   Assurance Statement

A draft of the fiscal year (FY) 2011 FMFIA assurance statement was not prepared and
provided in a timely manner. According to the United States (U.S.) Department of
Labor’s (DOL or the Department) Office of the Chief Financial Officer’s (OCFO) initial
FY 2011 reporting timeline, the draft FMFIA assurance statement was due to us on
October 13, 2011. However, we received the draft on November 1, 2011. The draft was
not provided by the initial due date because the OCFO extended the period of time
agencies could provide documentation to support internal control samples through
September 2011, which delayed the OCFO’s accumulation and reporting of Office of
Management and Budget (OMB) Circular No. A-123, Management’s Responsibility for
Internal Control, testing results.

Additionally, the draft FMFIA assurance statement we received was significantly
different from our audit results. Specifically, on October 3, 2011, we verbally
communicated to the OCFO that we had identified five control deficiencies that would
be reported as significant deficiencies or material weaknesses; three of these
deficiencies were eventually determined to be material weaknesses. However, the draft
FMFIA assurance statement was unqualified with no material weaknesses, and no
documentation was provided to support management’s consideration of our audit
results. This was primarily caused by the timing of DOL’s internal control assessment,
which was as of June 30, in contrast to our financial statement audit, which assessed
internal controls for the entire year. This differing timing could lead to differences in
severity determinations. However, management has a history of disagreement with
independent evaluations of its internal controls, as evidenced by the persistent nature of
certain independent findings, including:

   Lack of Adequate Controls over Access to Key Financial and Support Systems
    (reported since FY 2001)
   Federal Information Security Management Act (FISMA) significant deficiencies
    (reported for the last 10 years)

We also requested that DOL’s Summary of Aggregated Deficiencies (SAD), which is
used to track and assess DOL’s internally identified control weaknesses, significant
deficiencies, and material weaknesses, be provided to us on October 10, 2011.
However, we did not receive the SAD until October 21, 2011, and it was not complete
as it did not include any information technology (IT) control deficiencies. We eventually
received the IT SAD on November 2, 2011. The SAD also lacked sufficient explanations
for how management determined the final aggregated assessment, while the
preliminary assessment of individual findings was determined by the documented SAD

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2011
                                        5                       Report Number: 22-12-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

decision tree. Multiple control deficiencies were preliminarily assessed as material
weaknesses but were subsequently classified as significant deficiencies or control
deficiencies when aggregated at final assessment; however, no explanation of these
changes was documented. This occurred because management relied more on
judgment in the final assessment of control deficiencies than on the SAD decision tree.
Furthermore, DOL does not have policies and procedures to address how the rationale
for the final aggregation assessment should be documented.

The OCFO typically requires DOL agencies to submit quarterly financial management
certifications to attest to the effectiveness of internal controls over financial actions such
as compliance with federal financial requirements, compliance with FISMA, and the
status of prior year findings, among other requirements. These certifications also
include other internal controls required to effectively manage the DOL agencies’
operations. However, the FY 2011 financial management quarterly certifications were
not prepared or received from each DOL agency because OCFO management decided
that the financial management quarterly certifications would not be completed in
FY 2011. Furthermore, OCFO management expected to leverage the responses from
the FY 2010 Entity Level Controls Questionnaire to support the FMFIA assurance
statement.

Because the quarterly certifications were not completed, the agencies needed more
time to assess their internal controls at year-end. As a result, the annual financial
management certifications were not prepared and provided in a timely manner.
According to the OCFO’s initial FY 2011 reporting timeline, the annual financial
management certifications were due to us on October 13, 2011; however, we did not
receive them until November 7, 2011. The OCFO received three of the annual financial
management certifications after the draft FMFIA assurance statement was provided on
November 1, 2011. The Employment and Training Administration (ETA) and the Office
of Public Affairs provided their annual financial management certifications on
November 2, 2011, while the Office of Workers’ Compensation Programs (OWCP)
provided its certification on November 4, 2011. The annual financial management
certifications serve as management’s assurance to the Secretary that the Department is
in compliance with FMFIA and the Federal Financial Management Improvement Act of
1996 (FFMIA) as part of the support for the annual assurance statement. Furthermore,
the untimely receipt of annual financial certifications was not included in DOL’s FY 2011
SAD.

The issues noted above delayed the year-end financial statement audit and reporting
process. In addition, DOL’s documented FMFIA assessment results did not
demonstrate full compliance with OMB Circular No. A-123. Furthermore, given the
untimely receipt of annual financial management certifications, DOL’s FMFIA assurance
statement related to FMFIA sections 2 and 4 was not initially fully supported.




                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2011
                                          6                      Report Number: 22-12-006-13-001
                                                                       Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                                                        Exhibit I

FMFIA, paragraph 3, states:

      …By December 31 of each succeeding year, the head of each executive
      agency shall, on the basis of an evaluation conducted in accordance with
      guidelines prescribed under paragraph (2) of this subsection, prepare a
      statement – that the agency’s systems of internal accounting and
      administrative control fully comply with the requirements of paragraph
      (1)…

The Department of Labor Manual Series (DLMS) 6, Chapter 112, Section B12, Financial
Management, Responsibilities, states:

      …The CFO is responsible for preparing accurate and timely reports,
      including financial statements with performance measures, and reports
      prescribed under the Federal Managers’ Financial Integrity Act, the CFPA,
      and Amendments to the Inspector General Act.

Per OMB Circular No. A-123, Section IV.A:

      Sources of information include:…Audits of financial statements conducted
      pursuant to the Chief Financial Officers Act, as amended, including:
      information revealed in preparing the financial statements; the auditor’s
      reports on the financial statements, internal controls, and compliance with
      laws and regulations; and any other material prepared relating to the
      statements….Reviews of systems and applications conducted pursuant to
      the Computer Security Act of 1987. Identification of Deficiencies. Agency
      managers and employees should identify deficiencies in management
      controls from the sources of information described above. A deficiency
      should be reported if it is or should be of interest to the next level of
      management. Agency employees and managers generally report
      deficiencies to the next supervisory level, which allows the chain of
      command structure to determine the relative importance of each
      deficiency.

In addition, the DOL OCFO OMB Circular A-123, Appendix A Internal Controls over
Financial Reporting, FY 2011 Planning Memo, states:

      The SAD framework provides a decision tree for assessing each control
      deficiency individually and at an aggregated level in order to provide an
      overall conclusion. The SAD decision tree conclusion will directly feed the
      results of DOL assurance statement. The SAD framework considers the
      following when assessing the deficiencies: (1) The likelihood that the
      deficiency could result in a misstatement; (2) the magnitude of potential
      misstatements resulting from the deficiency; (3) the importance of the
      control that is deficient, including the degree to which other effective

                                                               Management Advisory Comments
                                                        For the Year Ended September 30, 2011
                                       7                      Report Number: 22-12-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

      controls achieve the same control objectives; (4) the nature of the account
      balances or classes of transactions affected by the internal control
      deficiency and the financial statement assertions involved; and (5)
      deficiency or combination of deficiencies important enough to merit the
      attention of those providing oversight of the organization financial
      reporting.

Finally, the Governmental Accountability Office’s (GAO) Standards for Internal Control
in the Federal Government (Standards) state, “Internal control and all transactions and
other significant events need to be clearly documented, and the documentation should
be readily available for examination.”

Recommendation

We recommend the Chief Financial Officer review DOL’s FMFIA assessment process
and implement enhancements to (a) better document its final internal control
assessments and related rationale, (b) document its consideration of relevant external
audit results, and (c) more timely complete its draft FMFIA assurance statement and
SAD.

Management’s Response

Management believes the FMFIA Assurance Statement preparation process was in
accordance with FMFIA and external reporting requirements. However, as with any
program, we believe that there are opportunities to enhance the program.

Accordingly, DOL will enhance the formal documentation that supports the FY12
Assurance Statement and the related rationale. This documentation will include all
inputs considered in the development of the assurance statement, including items such
as, but not limited to, relevant external audit results, OIG and GAO findings, financial
management certifications, and A123 findings. Management is planning to complete
testing earlier in FY12 and will therefore target completion of the FMFIA Assurance
Statement and SAD in mid-October 2012.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures during the FY 2012 consolidated
financial statement audit to determine whether such actions have been implemented.

2. Untimely Receipt of Prepared-by-Client (PBC) Items

During the FY 2011 audit, we noted that the OCFO made some progress in addressing
our recommendations from FY 2010 related to the untimely receipt of PBC items.
Specifically, the OCFO began implementing a quality control process for reviewing PBC

                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2011
                                        8                      Report Number: 22-12-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

items prior to submission to the auditors and made efforts to improve its monitoring of
the PBC list by sending reminder emails to responsible individuals in advance of the
PBC due date. The OCFO also began coordination with certain Agency Heads to
ensure they were properly monitoring those individuals responsible for delivering PBC
items. However, through mid-July 2011 of the FY 2011 audit, we noted improvement
was still needed in the PBC process. Specifically, we identified the following:

	 Numerous PBC items were provided in an untimely manner. As of July 11, 2011,
   29 percent of the PBC items requested in support of the financial statement audit
   were received more than 14 days after the due date, and half of these items were
   overdue by more than 30 days. An additional 16 percent of the PBC items requested
   were incomplete when initially provided or could not be provided at all.

	 Several of the PBC items provided were not suitable for audit purposes. For
   instance, data extracts related to general ledger transactions and expenses as of
   March 31, 2011 were initially incomplete and/or incorrect and required significant
   revisions.

	 Anticipated delays related to certain overdue PBC items were not consistently
   communicated, and revised due dates were not provided in a timely manner.

The issues above occurred because the OCFO was focused on reconciling accounts,
performing analyses, identifying errors, and recording necessary adjusting entries to
revise and reissue its FY 2010 consolidated financial statements for the first half of
FY 2011. As a result, the OCFO lacked the resources to fully implement the
recommendations communicated previously.

DOL’s inability to timely provide PBC items, produce suitable PBC items, consistently
communicate delays, and set revised due dates delayed the FY 2011 audit and financial
reporting timeline and impaired management’s ability to support that certain controls
were operating effectively.

GAO’s Standards state:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.




                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2011
                                        9                      Report Number: 22-12-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Recommendations

We recommend that the Chief Financial Officer:

1. Enhance the new quality control process for reviewing PBC items prior to
   submission to the auditors to ensure each item addresses all required elements per
   the request.

2. Continue efforts to improve monitoring of the PBC list by periodically reviewing it for
   items due in the upcoming weeks and following up with the responsible individuals at
   least one week prior to the due date to ensure they are tracked and to identify
   potential delays and ensure the appropriate resources are in place to adequately
   fulfill the PBC list.

3. Improve accountability for PBC items 	by continuing to coordinate with the
   appropriate Agency Heads to ensure they are properly monitoring those individuals
   responsible for delivering PBC items and taking appropriate corrective actions when
   PBC requests are not delivered timely.

4. Consistently communicate PBC delays, which should be rare, as soon as they are
   identified, and provide a realistic alternative delivery date based on consultation with
   the individual or agency responsible for providing the item.

Management’s Response

OCFO management will continue with our on-going efforts to review and approve all
PBC items and to ensure that each PBC item fully addresses all required elements prior
to submission to the auditors. OCFO will also continue to monitor the PBC list and to
coordinate with DOL agency heads and management and will continue to communicate
delays and revised due dates to the auditors based on our best estimates. The due
dates for the PBC items will need to be addressed next year.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures during the FY 2012 consolidated
financial statement audit to determine whether such actions have been implemented.

3. Deficiencies in Grant-related Obligation and Modification Controls

DOL uses the E-Grants system, which allows grantees to directly submit financial
information via the internet, to process, track, and monitor its grants. During our control
testing over obligations, we selected a sample of 78 new grant modifications and
obligations recorded during the period October 1, 2010, through June 30, 2011. We
identified two instances through our testing whereby the grant modification recorded in

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2011
                                         10                     Report Number: 22-12-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

the New Core Financial Management System (NCFMS) general ledger was posted to
the incorrect accounting line, and the amount recorded did not agree to the supporting
documentation in E-Grants. This was caused by a system error that posted the activity
incorrectly within NCFMS. Because of these exceptions, we concluded the control was
not operating effectively.

Inadequate controls over the posting of grant modifications in NCFMS increases the
risks that undelivered orders could be misclassified or misstated.

U.S. Code, Title 31, Section 1501, Documentary Evidence Requirement for Government
Obligations, states:

      An amount shall be recorded as an obligation of the United States
      Government only when supported by documentary evidence of a binding
      agreement between an agency and another person (including an agency)
      that is (a) in writing, in a way and form, and for a purpose authorized by
      law; and (b) executed before the end of the period of availability for
      obligation of the appropriation or fund.

U.S. Code, Title 31, Section 1554, Audit, Control and Reporting, states:

      The head of each agency shall establish internal controls to assure that an
      adequate review of obligated balances is performed to support the
      certification required by section 1108(c) of this title.

Per GAO’s Standards:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

Recommendation

We recommend that the Chief Financial Officer identify the specific cause of the
NCFMS posting error and develop and implement corrective actions to ensure
modifications are posted for the correct amount to the appropriate accounting line in
NCFMS.




                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2011
                                        11                     Report Number: 22-12-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Management’s Response

OCFO has identified the specific cause of the NCFMS posting error and implemented
corrective actions to ensure modifications are posted to the appropriate grants in
NCFMS.

Auditors’ Response

Management indicated that actions have been taken to address the matters identified in
this comment. We will conduct follow-up procedures during the FY 2012 consolidated
financial statement audit to determine whether such actions have been implemented.

4. Non-grant, Non-benefit New Obligations/Modifications

In FY 2010, we identified an instance where the obligating document did not agree to
the amount recorded in the general ledger. The Office of the Assistant Secretary for
Veterans’ Employment and Training Service (VETS) informed us that this occurred
because grant officers were allowed to make obligations for an amount less than the
obligating document and a documented communication should exist to support it.
However, VETS did not provide us any supporting documentation evidencing the
communications to decrease the obligation in this instance. As a result, we had
recommended that the Assistant Secretary for Veterans’ Employment and Training
Service enhance policies and procedures to ensure the changes made to obligating
documents are supported by documentation that is retained and readily available upon
request.

During the FY 2011 audit, we noted that VETS did not enhance its policies and
procedures to address the aforementioned issued. VETS informed us that this was
because of a lack of sufficient resources. We were also informed that as of August
2011, a new Director for VETS’ Office of Agency Management and Budget was
appointed and that a meeting was scheduled with the Office of Procurement Services to
review policies and procedures related to procurement actions.

Without adequate controls over the new obligation/modification process, new
obligations/modifications may be intentionally or unintentionally misreported. As a result,
undelivered orders could be invalid or inaccurate.

GAO’s Standards state:

      Internal control and all transactions and other significant events need to
      be clearly documented, and the documentation should be readily
      available for examination. The documentation should appear in
      management directives, administrative policies, or operating manuals
      and may be in paper or electronic form. All documentation and records
      should be properly managed and maintained.

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2011
                                         12                     Report Number: 22-12-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

Recommendation

We recommend that the Acting Assistant Secretary for Veterans’ Employment and
Training Service enhance policies and procedures to require that changes made to
obligating documents are supported by documentation that is retained and readily
available upon request.

Management’s Response

An annual work plan has been drafted that includes all funding obligations to ensure
that all VETS obligations are documented and approved by the appropriate officials.
Written documentation will be held by the Budget Officer.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures during the FY 2012 consolidated
financial statement audit to determine whether such actions have been implemented.

5. Improvements Needed in the Reconciliation and Recording of Employee Benefits

On a quarterly basis, federal agencies are required to submit their intragovernmental
fiduciary balances to the U.S. Department of the Treasury (Treasury) via the
Intragovernmental Fiduciary Confirmation System (IFCS). Agencies use IFCS to confirm
and reconcile their fiduciary transactions with certain trading partners. One of DOL’s
required FY 2011 reconciliations through IFCS was with the Office of Personnel
Management (OPM). As such, we requested a hard copy of the IFCS Confirmation of
Intragovernmental Account Balances related to DOL’s employee benefit program
transactions with OPM as of December 31, 2010, and March 31, 2011. The confirmation
showed that DOL had reported zero balances for these employee benefit program
transactions; however, DOL’s trial balance reported balances for this activity.
Furthermore, DOL was unable to provide sufficient documentation to substantiate that
the intragovernmental balances for these employee benefits were properly reconciled
with OPM for these quarters.

The issue noted above occurred because the OCFO did not have procedures in place
to require a supervisor or someone other than the preparer to review the quarterly
intragovernmental confirmation and reconciliation to ensure their timely and accurate
completion.

Because the reconciliations were not properly prepared and reviewed, we identified
object class codes related to certain employee benefit program expenses that were
incorrectly configured in NCFMS and were not detected by the OCFO. As a result, non-
federal expenses were overstated and intragovernmental expenses were understated


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2011
                                        13                     Report Number: 22-12-006-13-001
                                                                       Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                                                        Exhibit I

by $129 million as of June 30, 2011. DOL corrected this error as of September 30,
2011.

Treasury’s Federal Intragovernmental Transactions Accounting Policies Guide
(Intragovernmental Policies), Section 7, Agency Responsibilities, states, “Each agency
is responsible for…Reconciling the Intragovernmental data in its accounting records to
the supporting documentation based on FMS IRAS Reports.”

Also, the Intragovernmental Policies, Section 11.9, Intragovernmental Fiduciary
Confirmation System, states, “Agencies must use the IFCS to reconcile and confirm
balances and activity with their trading partners on a quarterly basis.”

FFMIA, Section 803(a), states:

      Each agency shall implement and maintain financial management
      systems that comply substantially with Federal financial management
      systems requirements, applicable Federal accounting standards, and the
      United States Government Standard General Ledger at the transactional
      level.

Recommendations

We recommend that the Chief Financial Officer:

1. Develop and implement procedures for supervisory review of the intragovernmental
   quarterly confirmation and reconciliation prior to submission to Treasury in IFCS.
   These procedures should require that the reviewer physically or electronically
   document his or her review and approval and the date of review.

2. Update the NCFMS configuration to properly crosswalk object class codes for
   employee benefit program and operating expenses based on United States
   Government Standard General Ledger requirements.

Management’s Response

1. We agree that the reconciliation with OPM was not done timely for the first and
second quarter of FY 2011 – it was completed and reviewed in July without any
significant differences. In FY 2012 management will ensure that the OPM reconciliations
are completed and reviewed on a timely basis.

2. The payroll configuration has been updated to properly crosswalk object class codes
as of 9/30/2011. Reclassification entries were recorded in the September 2011
accounting period.



                                                               Management Advisory Comments
                                                        For the Year Ended September 30, 2011
                                       14                     Report Number: 22-12-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures during the FY 2012 consolidated
financial statement audit to determine whether such actions have been implemented.

6. Insufficient Documentation Related to the Request for Personnel Action, Standard
   Form 52 (SF-52)

SF-52s, are used to initiate and approve most personnel actions, including hiring,
promotions, within grade increases, transfers, and separations (which includes death).
During our testing of 13 separated employees from October 1, 2010, through
March 31, 2011, we identified one separated employee that had a personnel action
code of 350 (Death) listed in DOL’s Human Resources (HR) management system.
However, an SF-52 was not prepared because the Office of the Assistant Secretary for
Administration and Management (OASAM) district office personnel believed it was not
required for that action code.

If SF-52s are not completed for required actions, an increased risk exists that invalid or
unauthorized payroll and benefit activities could be processed for personnel actions
related to separation activities. This could ultimately lead to payroll and benefit
expenses being potentially misstated.

According to DOL’s Separation Clearance (DL 1-107) form, “Employing office should
prepare a clearance form for each departing employee.”

Section A of the DL 1-107 further states, “Employing Office clears/prepares the
following: 1. WebPARs Request for Personnel Action Initiated.”

Additionally, OPM’s The Guide to Processing Personnel Actions, Chapter 1, The Guide
to Processing Personnel Actions, Subchapter 1, Introduction to this Guide, Section 1-3,
Documentation of Personnel Actions, states:

      For most of the personnel actions you process, there will be a Request for
      Personnel Action, Standard Form 52, or a similar agency form approved
      by the Office of Personnel Management as an exception to the Standard
      Form 52.

Recommendation

We recommend that the Director of Human Resources, Human Resource Center,
OASAM, provide training to reinforce with applicable DOL personnel the procedures to
be followed and documentation to be prepared when processing separated employees.



                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2011
                                        15                      Report Number: 22-12-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Management’s Response

Management will reinforce the procedures to be followed and documentation to be
prepared when processing separated employees. The particular case noted was an
isolated incident in which there was no risk that invalid or unauthorized payroll and
benefit activities would be processed. When an employee dies, the servicing Human
Resources Office (HRO) also handles the related benefits information and therefore
receives documentation in the form of a death certificate that the employee has died.
There is thus no risk that invalid or unauthorized payroll and benefit activities would be
processed.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures during the FY 2012 consolidated
financial statement audit to determine whether such actions have been implemented.

7. Insufficient Documentation Related to the Review of Payroll Suspense Reports

During FY 2011, DOL used the U.S. Department of Agriculture National Finance Center
(NFC) as its third-party payroll service provider. During our audit, we tested the
resolution process for personnel and payroll actions that were requested by DOL but
were not processed by the NFC. Such items were summarized in a suspense report
each pay period for each HR office. We selected a sample of 29 payroll suspense
reports during the period October 1, 2010, through April 30, 2011, and identified the
following exceptions:

      10 instances where the HR offices did not have sufficient and appropriate
       documentation to support that errors were adequately researched and corrective
       actions were initiated and completed in a timely manner.

   	 12 instances where the HR offices did not provide the requested suspense
      reports or supporting documentation.

These exceptions occurred because OASAM’s Standard Operating Procedures
Guidelines for HR Payroll Suspense Process did not specifically state the minimum
documentation requirements for the review of suspense reports and the clearing of
items listed on the suspense reports. Also, it did not contain document retention
requirements. Furthermore, the decentralized HR organizational structure within DOL
made it difficult for OASAM to obtain the needed documentation to monitor that
suspense reports were being properly researched and resolved in a timely manner, and
adequately reviewed. These factors increase the risk that suspense reports are not
reviewed daily and appropriately and timely corrected, which may result in
misstatements.


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2011
                                        16                      Report Number: 22-12-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

GAO’s Standards state:

       Internal control and all transactions and other significant events need to be
       clearly documented, and the documentation should be readily available for
       examination. The documentation should appear in management
       directives, administrative policies, or operating manuals and may be in
       paper or electronic form. All documentation and records should be
       properly managed and maintained.

In addition, OASAM’s Standard Operating Procedures Guidelines for HR Suspense
Process states:

       Each day the HR specialists will work actions in the PeoplePower
       application.

It also states:

       If the actions fail, the status will be Suspense, the actions should be
       reviewed and researched to determine the appropriate correction/change
       necessary to allow the action to pass the edits.

Recommendations

We recommend that the Assistant Secretary for Administration and Management
update the Standard Operating Procedures Guidelines for the HR Suspense Process to
include minimum documentation requirements to support the review of suspense
reports and the clearing of items listed on the suspense reports. The update should also
include requirements related to the time period and method of retention of such
documentation.

We also recommend that the Director of Human Resources, Human Resource Center,
OASAM, monitor compliance with the Standard Operating Procedures Guidelines for
the HR Suspense Process.

Management’s Response

OASAM HRC will consult with the Human Resources Offices (HROs) and the OCFO to
review the NFC Suspense Transaction Report and determine what specific
requirements should be instituted with regard to documenting the resolution of
suspense items for audit purposes. A conference call with HROs was conducted during
the first quarter 2012.

Standard Operating Procedures Guidelines for the HR Suspense Process has been
revised to include requirements on the time period and method of retention of such


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2011
                                         17                     Report Number: 22-12-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

documentation. The revised SOP will be sent to the HROs for clearance. This will be
enforced by HRC as a part of its accountability program.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures during the FY 2012 consolidated
financial statement audit to determine whether such actions have been implemented.

8. Untimely Recording of Property, Plant, and Equipment (PP&E) and Lack of Formal
   Policies and Procedures over Monitoring of Contractors

During the course of the FY 2011 audit, we noted that the OCFO did not have a
sufficient depth of accounting personnel to perform all necessary functions and provide
certain PBC items timely. Specifically, we noted that the OCFO relied solely on
contractors to perform the accounting function related to PP&E. In the contractor’s
absence, the OCFO did not record the majority of the third quarter transactions related
to PP&E in the general ledger as of June 30, 2011.

The issues above occurred because as of June 30, 2011, the NCFMS PP&E module
was not properly configured to record PP&E additions, deletions, and current year
depreciation expense. As a result, the OCFO accounted for current year PP&E
transactions through spreadsheets, and relied on a contractor to ensure PP&E
transactions were properly recorded in the general ledger. However, internal
procurement issues prevented the contractor from temporarily providing these services.
The OCFO expected the issue to be addressed quickly and therefore did not identify
alternate personnel to perform the PP&E accounting function in the contractor’s
absence; however, the issue was not resolved until August 8, 2011. As a result, Gross
PP&E was overstated by $2.2 million as of June 30, 2011, while accumulated
depreciation and depreciation expense were understated by $18.5 million and
$15 million, respectively. These transactions were ultimately recorded in August 2011.
We noted that these issues caused delays in the FY 2011 audit.

We also noted that the OCFO did not develop and implement formal policies and
procedures to monitor the work of its contractors. Because the OCFO was focused on
reissuing its FY 2010 consolidated financial statements during the first half of FY 2011,
the OCFO lacked the resources to develop and implement formal policies and
procedures to monitor the work of its contractors. The lack of formalized policies and
procedures could lead to ineffective oversight over contractors, which could result in
deficiencies in internal control over financial reporting that prevent the OCFO from
identifying misstatements in the financial statements.

OMB Circular No. A-123 defines management’s responsibility and provides guidance to
federal managers on improving the accountability and effectiveness of federal programs
and operations by establishing, assessing, correcting, and reporting on internal control.

                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2011
                                        18                     Report Number: 22-12-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Within the organizational structure, management must clearly: define areas of authority
and responsibility; appropriately delegate the authority and responsibility throughout the
agency; establish a suitable hierarchy for reporting; support appropriate human capital
policies for hiring, training, evaluating, counseling, advancing, compensating, and
disciplining personnel; and uphold the need for personnel to possess and maintain the
proper knowledge and skills to perform their assigned duties as well as understand the
importance of maintaining effective internal control within the organization.

In addition, GAO’s Standards state, “Transactions should be promptly recorded to
maintain their relevance and value to management in controlling operations and making
decisions.”

GAO’s Standards also state:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

Recommendations

We recommend that the Chief Financial Officer:

1. Complete efforts to configure NCFMS so it can be used to record PP&E additions
   and deletions and to accurately calculate current year depreciation and accumulated
   depreciation.

2. Identify and train alternate personnel to perform the financial reporting functions
   assigned to the PP&E contractors in the contractors’ absence.

3. Formally document the policies and procedures necessary to monitor the work of its
   contractors.

Management’s Response

DOL is developing a PP&E module in NCFMS to account for PP&E additions and
deletions and to calculate depreciation expense. A completion date for this module will
depend on available resources. The processes currently employed are adequate to
properly account for PP&E and the related depreciation.

Until the NCFMS PP&E module is fully functional, management will continue to rely
primarily on a contractor to continue to maintain the PP&E sub-ledger to properly
account and record PP&E transactions and balances and related depreciation.

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2011
                                        19                      Report Number: 22-12-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I


Each quarter, management personnel review and approve the compilation of PP&E
transactions prior to posting journal vouchers (JV) to the general ledger. All PP&E and
depreciation JVs are electronically approved by the appropriate Federal staff. PP&E and
depreciation transactions in any one quarter are not significant. As such, due to the lack
of resources at that time management decided not to record the majority of such
transactions in the third quarter and to record both the third and fourth quarter
transactions in the fourth quarter.

Auditors’ Response

Management indicated that certain actions will be taken to address the matters
identified in this comment. We will conduct follow-up procedures during the FY 2012
consolidated financial statement audit to determine whether such actions have been
implemented.

9. Improvements Needed over PP&E Construction-in-Process (CIP)

During our control testing over DOL’s PP&E as of June 30, 2011, we noted that 3 of 45
CIP assets selected for testing as of June 30, 2011, related to payments made by ETA
for external consulting fees. These consulting fees should have been reported as
operating expenses but were inappropriately capitalized as part of CIP in the general
ledger. This error was not detected by supervisory review. The three aforementioned
errors caused CIP to be overstated and operating expenses to be understated by
$47,990 as of June 30, 2011.

Per paragraph 26 of Statement of Federal Financial Accounting Standards (SFFAS)
No. 6, Accounting for Property, Plant, and Equipment, “All general PP&E shall be
recorded at cost. Cost shall include all costs incurred to bring the PP&E to a form and
location suitable for its intended use.”

Recommendations

We recommend that the Chief Financial Officer:

1. Analyze CIP detail to	 identify all improperly capitalized consulting fees, and
   reclassify them from CIP to Operating Expense in the general ledger.

2. Develop and implement review procedures over the CIP detail quarterly to ensure
   that all items are appropriately capitalized.




                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2011
                                        20                      Report Number: 22-12-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

Management’s Response

The effects of the misclassified consulting costs of $47,990 are clearly inconsequential
in comparison to the CIP balance of $87.7 million. These consulting costs were
reclassified to operating expenses as of September 30, 2011.

Regarding the recommendation to “develop and implement review procedures over the
CIP detail quarterly to ensure that all items are appropriately capitalized” we believe that
DOL has implemented adequate procedures as summarized below for the Office of Job
Corps (OJC), which accounts for the majority of CIP that DOL has.

Each quarter, OJC contract personnel:

   1. Meet with the OJC accountable property officer (APO) to determine the status of
      existing CIP projects and identify any new projects,
   2. Extract the costs recorded as operating expenses in the general ledger for each
      active CIP document number including any recently completed projects,
   3. Update the CIP summary schedule to reflect the cumulative	 costs of CIP
      projects,
   4. Develop and assist in posting JVs to capitalize the CIP costs and transfer the
      costs of completed projects to assets, and
   5. Reconcile the cumulative costs reflected in the CIP summary schedule to the
      OJC and ETA adjusted trial balances and investigate variances such as
      improperly capitalized expenses.

Auditors’ Response

Although management states quarterly procedures were in place over CIP detail,
exceptions were identified during our control testing over a sample of CIP transactions
as discussed above. While these exceptions were not material to the FY 2011
consolidated financial statements as a whole, they do indicate deficiencies exist in the
CIP process that if not mitigated could result in larger misstatements not being identified
and corrected in a timely manner. We will conduct follow-up procedures in FY 2012 to
determine whether improvements in these controls have been made.

10. Lack 	of Proper Review over the Energy Employees Occupational Illness
    Compensation Benefits (EEOICB) Liability

OWCP engaged external actuaries to develop an actuarial model to estimate its
EEOICB liability. During our testing over the EEOICB liability, we identified an error in
the actuarial model related to the calculation of the number of eligible medical cases,
which was not detected by OWCP supervisory review. This occurred because policies
and procedures for proper review of the actuarial model of the EEOICB future liability
were not sufficient to ensure that the calculations produced by the actuaries were


                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2011
                                         21                      Report Number: 22-12-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

reasonable. Undetected and uncorrected errors in the actuarial model of the EEOICB
future liability may cause the actuarial liability to be misstated.

GAO’s Standards state:

      Control activities occur at all levels and functions of the entity. They
      include a wide range of diverse activities such as approvals,
      authorizations, verifications, reconciliations, performance reviews…and
      the creation and maintenance of related records which provide evidence
      of execution of these activities as well as appropriate documentation.
      Control activities may be applied in a computerized information system
      environment or through manual processes.

GAO Standards also state:

      Internal control should provide reasonable assurance that the objectives of
      the agency are being achieved [relative to] reliability of financial reporting,
      including reports on budget execution, financial statements, and other
      reports for internal and external use [and] compliance with applicable laws
      and regulations.

Recommendation

We recommend that the Acting Director of the Office of Workers’ Compensation
Programs revise policies and procedures for the review of the EEOICB actuarial model
to mitigate the risk that errors within the actuarial model may cause a material
misstatement.

Management’s Response

OWCP concurs that improvements can be made to the existing review process for the
EEOICP future liability estimate and will implement a more robust procedure for 2012.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures during the FY 2012 consolidated
financial statement audit to determine whether such actions have been implemented.

11. Refinement of Discount Rate Selections

OWCP consistently used certain spot interest rates derived from OMB indices to
discount the projected cash flows developed by its actuaries and statisticians in
developing the annual estimates for certain discounted long-term actuarial liabilities and
the discounted cash flows reflected in the statement of social insurance. During the

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2011
                                        22                      Report Number: 22-12-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

FY 2011 audit, we found that the use of these spot rates approximated the use of
average historical rates on marketable Treasury securities with maturities consistent
with the projected cash flows being discounted.

OWCP personnel informed us that they have used the same source to obtain the spot
rates each year to ensure consistency and objectivity in arriving at an annual discount
rate and to eliminate the ability for management bias to be introduced into the
determination of an appropriate discount rate. However, continued volatility in interest
rates and significant changes in actuarial assumptions regarding the timing of future
cash flows could result in these spot rates no longer producing discounted cash flows
that approximate the use of average historical rates on marketable Treasury securities
with maturities consistent with the projected cash flows being discounted, as required by
federal accounting standards.

Per SFFAS No. 5, Accounting for Liabilities of the Federal Government:

      …the discount rate assumption for present value measurements pension
      liabilities should be the interest rate on marketable Treasury securities of
      similar maturities to the cash flows of the payments for which the estimate
      is being made. The discount rates should be matched with the expected
      timing of the associated expected cash outflow. Thus, each year for which
      cash flows are projected should have a separate discount rate associated
      with it. However, a single average discount rate may be used for all
      projected future payments if the resulting present value is not materially
      different than the resulting present value using multiple-rates. The
      discount rates should reflect average historical rates on marketable
      Treasury securities rather than give undue weight to recent past
      experience with such rates. Historical experience should be the basis for
      expectations about future trends in marketable Treasury securities. In
      developing the average historical Treasury rates, a minimum of five
      historical rates as of the appropriate reporting dates should be used for
      each maturity. The historical rates used to calculate the average should be
      sequential (e.g. 2003-2007).

In addition, per SFFAS No. 33, Pensions, Other Retirement Benefits, and Other
Postemployment Benefits: Reporting the Gains and Losses from Changes in
Assumptions and Selecting Discount Rates and Valuation Dates, Appendix A: Basis for
Conclusions, paragraph A44:

      The FASAB believes that the objective of discount rates is to reflect the
      time value of money. The time value of money should reflect the single
      amount that, if invested at the measurement date in risk-free investments
      with maturities like those of the future benefit payments being measured,
      would generate the necessary cash flows to pay the benefits when due.
      Marketable U.S. Treasury securities are deemed risk free because they

                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2011
                                        23                     Report Number: 22-12-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

      pose neither uncertainty in timing nor risk of default to the holder. This
      single amount is the gross liability. It would equal, conceptually, the
      current market value of a portfolio of Treasury zero coupon bonds whose
      maturity dates and amounts would be the same as the timing and amount
      of the expected future benefit payments. In the absence of a portfolio of
      such zero coupon Treasury securities, however, the federal preparer
      should incorporate in assumed discount rates the re-financing rates
      expected to be available on marketable Treasury securities in the future,
      which should be extrapolated from historical experience.

In addition, paragraph A41 states:

      The Board believed that discount rates for present value measurements of
      expense and liability amounts should be average historical rates for
      marketable Treasury securities because they reflect the government’s
      borrowing cost with the public. Also, expected longterm rates reduce
      volatility, reflect the actual experience and expectations of the primary
      federal plans, and are consistent with the assumptions used in the
      budget.” Furthermore, paragraph A47 states, “The proposed standard was
      not intended to change the Board’s preference, expressed in SFFAS 5
      and elsewhere, for expected future trends rather than giving undue weight
      to recent past experience. With respect to assumptions in general, FASAB
      standards have emphasized expected future trends.

Recommendation

We recommend that the Acting Director of the Office of Workers’ Compensation
Programs refine the discount rate selection methodology to incorporate guidance
provided in federal accounting standards to ensure discounted liabilities and cash flows
presented in DOL’s financial statements continue to meet federal accounting standards.

Management’s Response

OWCP will consider the use of average historical rates on marketable Treasury
securities with maturities consistent with the projected cash flows being discounted for
2012 actuarial liability projections.

On an annual basis, the Office of the Chief Financial Officer will review the methodology
for selecting the interest rate used to discount the cash flows reported on the Statement
of Social Insurance.




                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2011
                                        24                      Report Number: 22-12-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures during the FY 2012 consolidated
financial statement audit to determine whether such actions have been implemented.

12. Re-establishment of the Unemployment Compensation Advisory Council

ETA was not in compliance with Section 908 of the Social Security Act (SSA) because it
requires the Advisory Council on Unemployment Compensation (ACUC) to meet every
four years, and the last meeting of the ACUC was held in 1997. ETA does not believe
that the ACUC is the most effective way to evaluate the unemployment compensation
program. As a result, ETA has proposed an amendment to the SSA multiple times since
2005, most recently in the Unemployment Compensation Program Integrity Act of 2011,
that would permit the Secretary of the Department of Labor to establish an advisory
council at his/her discretion instead of every four years. Congress has not yet approved
ETA’s proposed amendment.

Section 908 of the SSA states:

      Not later than February 1, 1992, and every 4th year thereafter, the
      Secretary of Labor shall establish an advisory council to be known as the
      Advisory Council on Unemployment Compensation (referred to in this
      section as the "Council"). It shall be the function of each Council to
      evaluate the unemployment compensation program, including the
      purpose, goals, countercyclical effectiveness, coverage, benefit adequacy,
      trust fund solvency, funding of State administrative costs, administrative
      efficiency, and any other aspects of the program and to make
      recommendations for improvement.

Recommendation

We recommend that the Assistant Secretary of Employment and Training Administration
continue to pursue having the SSA amended.

Management’s Response

ETA continues to pursue an amendment to the Social Security Act that would require
the Secretary of the Department of Labor to establish an advisory council periodically
instead of every four years. Such an amendment has been included in the
Unemployment Compensation Program Integrity Act of 2005, 2006, 2008, and 2010, but
has not been acted upon by Congress. Consistent with the recommendation, ETA will
continue to work to advance an amendment to the Social Security Act. A similar
proposal was transmitted to Congress June 11, 2011 as part of the FY 2011 legislative
package.

                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2011
                                        25                     Report Number: 22-12-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I


Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures during the FY 2012 consolidated
financial statement audit to determine whether such actions have been implemented.

13. Improvements Needed in Completion of Accounting Checklist

The GAO Financial Audit Manual (FAM) 2010 - Checklist for Federal Accounting (FAM
2010) is designed to assist federal entities in preparing their financial statements in
accordance with U.S. generally accepted accounting principles (GAAP). During
FY 2011, we noted that the OCFO did not properly complete the FAM 2010.
Specifically, the OCFO did not provide explanations or other pertinent information to
support its responses for the majority of the items on the detailed checklist.

This issue occurred because the OCFO’s draft policies and procedures related to the
financial reporting process did not provide sufficient instructions on how the FAM 2010
checklist should be prepared and reviewed. Without sufficient controls in place over
financial reporting, an increased risk exists that DOL’s consolidated financial statements
may not be presented in conformity with GAAP.

OMB Circular No. A-136, Financial Reporting Requirements, states:

      Reporting entities should ensure that information in the financial
      statements is presented in accordance with GAAP for Federal entities and
      the requirements of this Circular. Preparers of financial statements
      seeking additional guidance on matters involving the recognition,
      measurement, and disclosure requirements should refer to the specific
      FASAB standards governing those requirements.

In addition, GAO’s FAM 2010 provides the following instructions for completing the
checklist:

      For each ‘yes’ answer, include in the explanation column the page number
      or location in the financial statements where the information is found. Also,
      provide any other information pertinent to the question and the response
      in the explanation column.

      A ‘no’ answer indicates that the information asked for in the question is not
      included in the financial statements, notes, or supplementary information,
      respectively. This would include immaterial items that need not be
      disclosed. Describe in the explanation column or note why the information
      is not included and whether this causes the financial statements to not be
      in conformity with U.S. GAAP.

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2011
                                        26                      Report Number: 22-12-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I


      An ‘N/A’ answer might indicate that the question does not apply to the
      federal entity. Describe in the explanation column or note why this
      information is not applicable.

Recommendation

We recommend that the Chief Financial Officer revise the policies and procedures
related to the annual preparation and review of the FAM 2010. The policies and
procedures should include the following, at a minimum: a) the date by which the
checklist should be completed and reviewed; b) requirements for preparers to support
their responses to questions in the checklist with detailed explanations, in accordance
with GAO’s instructions; and c) requirements for a supervisor to review the completed
FAM 2010 checklist for completeness, accuracy, and validity.

Management’s Response

In FY 2011, OCFO completed the FAM 2010 checklist in a manner that was consistent
with prior years and the checklist was reviewed and approved by OCFO staff and
management.

For FY 2012, the FAM 2010 checklist will be prepared taking into consideration the
auditor’s recommendation.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures during the FY 2012 consolidated
financial statement audit to determine whether such actions have been implemented.




                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2011
                                        27                     Report Number: 22-12-006-13-001
                                                Prepared by KPMG LLP
            for the U.S. Department of Labor—Office of Inspector General
                                                                 Exhibit I




THIS PAGE IS INTENTIONALLY LEFT BLANK





                                        Management Advisory Comments
                                 For the Year Ended September 30, 2011
               28                      Report Number: 22-12-006-13-001
                                                                                                        Prepared by KPMG LLP
                                                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                                                         Exhibit II




Status of Prior Year Comments 

The status of comments reported in the Management Advisory Comments Identified in the Engagement to Audit the
Consolidated Financial Statements for the Year Ended September 30, 2010, dated March 31, 2011, (MAC), addressed
to the Assistant Inspector General for Audit and the Chief Financial Officer, United States (U.S.) Department of Labor
(DOL), is summarized in the table below. For each comment, we provided the current year status.

                                                                                                             FY 2011 Status of
Prior Year   Fiscal Year     Title of Comment                                                                    Comment
Comment       Comment      Reported in FY 2010                                                                Reported in the
 Number      Originated             MAC          Recommendation(s) Reported in the FY 2010 MAC                 FY 2010 MAC
 2010-01        2010       Untimely Receipt of   We recommended that the Chief Financial Officer:            Open (See Exhibit
                           Prepared-by-Client                                                                1 comment no. 2)
                           (PBC) Items
                                                 1. Develop and implement a quality control process
                                                    for reviewing PBC items prior to submission to the
                                                    auditors.
                                                 2. Improve monitoring of the PBC list by periodically
                                                    reviewing it for items due in the upcoming weeks
                                                    and following up with the responsible individuals
                                                    prior to the due date to ensure they are tracked and
                                                    to identify potential delays prior to the due date;
                                                    and ensure the appropriate resources are in place
                                                    to adequately fulfill the PBC list.
                                                 3. Improve     accountability for PBC items by
                                                    coordinating with the appropriate Agency Heads to
                                                    ensure they are properly monitoring those
                                                    individuals responsible for delivering PBC items.
                                                 4. Communicate PBC delays, which should be rare,
                                                    as soon as they are identified, and provide a
                                                    realistic alternative delivery date based on
                                                    consultation with the auditors and individuals or
                                                                                                Management Advisory Comments
                                                                                         For the Year Ended September 30, 2011
                                                           29                                  Report Number: 22-12-006-13-001
                                                                                                        Prepared by KPMG LLP
                                                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                                                        Exhibit II

                                                                                                            FY 2011 Status of
Prior Year   Fiscal Year    Title of Comment                                                                    Comment
Comment       Comment      Reported in FY 2010                                                               Reported in the
 Number      Originated            MAC           Recommendation(s) Reported in the FY 2010 MAC                FY 2010 MAC
                                                   agency responsible for providing the item.
 2010-02        2010       Unsupported and       We recommended that the Chief Financial Officer:           Closed
                           Incorrect Upward
                           Adjustments
                                                 1. Properly resolve all Federal Agencies’ Centralized
                                                    Trial-Balance System (FACTS II) edit check issues
                                                    and only record adequately supported adjusting
                                                    entries to the general ledger.
                                                 2. Update the system configuration in the New Core
                                                    Financial Management System (NCFMS) to record
                                                    a credit to Account 4801 for activities related to
                                                    new obligations for multi-year unexpired funds.
 2010-03        2009       Failure to Provide    We recommended that the:                              Open (See
                           Sufficient                                                                  Independent
                           Documentation for
                                                 1. Assistant Secretary for Employment and Training Auditors’ Report
                                                    reinforce policies and procedures and provide
                           Certain Non-Grant,                                                          internal control
                                                    related training to address the minimum
                           Non-Benefit                                                                 deficiency no. 1)
                                                    documentation requirements need to sufficiently
                           Expenses
                                                    support recorded transactions.
                                                 2. National Director of the Office of Job Corps
                                                    reinforce policies and procedures to ensure
                                                    supporting documentation for transactions are
                                                    properly managed, maintained, and easily
                                                    retrieved.
                                                 3. Assistant Secretary for the Veteran’s Employment
                                                    and Training Service and the National Director of
                                                    the Office of Job Corps reinforce procedures to
                                                    satisfy audit requests in a timely manner by (a)
                                                    identifying the appropriate personnel to handle
                                                    audit request timely, (b) obtaining and providing
                                                    supporting documentation to the auditors timely,

                                                                                                Management Advisory Comments
                                                                                         For the Year Ended September 30, 2011
                                                         30                                    Report Number: 22-12-006-13-001
                                                                                                         Prepared by KPMG LLP
                                                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                                                         Exhibit II

                                                                                                             FY 2011 Status of
Prior Year   Fiscal Year    Title of Comment                                                                     Comment
Comment       Comment      Reported in FY 2010                                                                Reported in the
 Number      Originated            MAC            Recommendation(s) Reported in the FY 2010 MAC                FY 2010 MAC
                                                     and (c) requiring designated supervisors to
                                                     regularly monitor the progress of audit request
                                                     responses.
 2010-04        2010       Inadequate Review     We recommended that the Assistant Secretary for the         Open (see Exhibit
                           of Non-grant, Non-    Veteran’s Employment and Training Service enhance           I comment no. 4)
                           benefit, New          policies and procedures to ensure that changes made
                           Obligations/          to obligating documents are supported by
                           Modifications         documentation that is retained and readily available
                                                 upon request.
 2010-05        2007       Lack of Monitoring    We recommended that the Assistant Secretary for             Recommendation
                           over Grant Costs      Employment and Training perform the following:              no. 3 - Open (see
                                                                                                             Independent
                                                 1. Evaluate   the Grants e-Management System
                                                                                                             Auditors’ Report
                                                    (GEMS) to determine the cause of the system error
                                                                                                             internal control
                                                    and develop appropriate corrective action to ensure
                                                                                                             deficiency no. 1);
                                                    that desk reviews submitted by Federal Project
                                                                                                             Recommendation
                                                    Officers (FPOs) are properly accepted by the
                                                                                                             nos. 1, 2, 4, and 5
                                                    system.
                                                                                                             - Closed
                                                 2. Establish procedures in GEMS such that a
                                                    confirmation is provided to the FPO upon review
                                                    submission.
                                                 3. Require supervisors to periodically review a sample
                                                    of active grantees to confirm that the reports are
                                                    being completed timely. This review should be
                                                    documented.
                                                 4. Work with the Office of the Chief Financial Officer
                                                    (OCFO) to ensure all interface issues have been
                                                    resolved between E-Grants and NCFMS.
                                                 5. Develop and implement procedures to monitor

                                                                                                 Management Advisory Comments
                                                                                          For the Year Ended September 30, 2011
                                                          31                                    Report Number: 22-12-006-13-001
                                                                                                            Prepared by KPMG LLP
                                                                        for the U.S. Department of Labor—Office of Inspector General
                                                                                                                            Exhibit II

                                                                                                                FY 2011 Status of
Prior Year   Fiscal Year    Title of Comment                                                                        Comment
Comment       Comment      Reported in FY 2010                                                                   Reported in the
 Number      Originated            MAC              Recommendation(s) Reported in the FY 2010 MAC                 FY 2010 MAC
                                                       grantee’s delinquent cost reports using data from
                                                       E-Grants until all the issues impacting the
                                                       Delinquent Reporting Analysis are resolved.
 2010-06        2006       Lack of Controls over    We recommended that the Assistant Secretary for Open (see
                           Grant Closeouts          Employment and Training perform the following:        Independent
                                                                                                          Auditors’ Report
                                                    1. Evaluate E-Grants to determine the cause of the internal control
                                                       continuing system errors related to the acceptance
                                                                                                          deficiency no. 2)
                                                       of ETA 9130s, and develop and implement the
                                                       appropriate corrective action.
                                                    2. Develop and implement alternative procedures to
                                                         closeout ETA grants until the system issues are
                                                         corrected.
 2010-07        2010       Inaccurate               We recommended that the Director of the Office of Closed
                           Calculation of Certain   Workers’ Compensation Programs correct the system
                           Schedule Award           configuration in the Integrated Federal Employees
                           Payments                 Compensation System so it accurately calculates the
                                                    full amount of Schedule Awards payments owed to the
                                                    claimants in accordance with Section 2-0901-14 of the
                                                    Division of Federal Employees’ Compensation
                                                    Procedure Manual.
 2010-08        2007       Lack of                  We recommended that the Chief Financial Officer and Closed
                           Reconciliation of        the National Director of the Office of Job Corps
                           Child Agency Data        determine the appropriate personnel to perform the
                           Reported in the DOL      reconciliation between the child agency’s Forms 2110F
                           Trial Balance            and the child agency’s trial balance. Once determined,
                                                    we recommend that the appropriate office make the
                                                    following improvements to its internal control structure:
                                                    1. Formalize policies and procedures in writing related
                                                       to the reconciliation of child agency data reported

                                                                                                    Management Advisory Comments
                                                                                             For the Year Ended September 30, 2011
                                                             32                                    Report Number: 22-12-006-13-001
                                                                                                         Prepared by KPMG LLP
                                                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                                                         Exhibit II

                                                                                                             FY 2011 Status of
Prior Year   Fiscal Year    Title of Comment                                                                     Comment
Comment       Comment      Reported in FY 2010                                                                Reported in the
 Number      Originated            MAC           Recommendation(s) Reported in the FY 2010 MAC                 FY 2010 MAC
                                                   in the child agencies’ trial balance to the Forms
                                                   2110F,     and   ensure      they   are    properly
                                                   communicated to all appropriate individuals.
                                                 2. Require in the procedures that the reconciliation be
                                                    completed and reviewed prior to the end of the
                                                    subsequent quarter (e.g., the June 30 reconciliation
                                                    should be completed before September 30).
                                                 3. Require in the procedures that a supervisor review
                                                     the reconciliation for timeliness and accuracy. This
                                                     review should be documented by the reviewer
                                                     signing and dating the reconciliation.
 2010-09        1997       Re-establishment of   We recommended that the Assistant Secretary for Open (See Exhibit
                           the Unemployment      Employment and Training continue to pursue having I comment no. 12)
                           Compensation          the Social Security Act amended.
                           Advisory Council
 2010-10        2010       Insufficient          We recommended that the Assistant Secretary for Open (See Exhibit
                           Documentation         Administration and Management update the Standard I comment no. 7)
                           Related to the        Operating Procedures Guidelines for the Human
                           Review of Payroll     Resource Payroll Suspense Process to include
                           Suspense Reports      minimum documentation requirements to support the
                                                 review of suspense reports and the clearing of items
                                                 listed on the suspense reports. The update should
                                                 also include requirements related to the length and
                                                 method of retention of such documentation.
 2009-8         2009       Accounting for        We recommended that the Interim National Director of Closed
                           Certain Job Corps     the Office of Job Corps:
                           Contracts
                                                 1. Review the detail of Job Corps advances at
                                                    September 30, 2009, identify all invalid advances,
                                                    and post adjustments necessary to properly state

                                                                                                 Management Advisory Comments
                                                                                          For the Year Ended September 30, 2011
                                                          33                                    Report Number: 22-12-006-13-001
                                                                                                            Prepared by KPMG LLP
                                                                        for the U.S. Department of Labor—Office of Inspector General
                                                                                                                            Exhibit II

                                                                                                                FY 2011 Status of
Prior Year      Fiscal Year    Title of Comment                                                                     Comment
Comment          Comment      Reported in FY 2010                                                                Reported in the
 Number         Originated            MAC           Recommendation(s) Reported in the FY 2010 MAC                 FY 2010 MAC
                                                      the advance balance no later than March 31, 2010.
                                                    2. Develop and implement policies and procedures to
                                                       monitor Job Corps centers receiving advances and
                                                       perform follow-up, as necessary, to ensure centers
                                                       are reporting expenditures timely.
     2009-9        2009       Compliance with the   We recommended that the Acting Deputy Chief Closed
                              Prompt Payment Act    Financial Officer direct the Division of Client
                                                    Accounting Services to adopt the following
                                                    improvements to its internal control structure:
                                                    1. Reinforce procedures with the regional offices that
                                                       invoice received dates entered into Department of
                                                       Labor     Accounting   and    Related    Systems
                                                       (DOLAR$1) should reflect the date of receipt of a
                                                       proper invoice by DOL.
                                                    2. Develop and implement a periodic review process
                                                       to verify that proper invoice received dates are
                                                       entered into DOLAR$.




1
    DOLAR$ was replaced in FY 2010 by NCFMS.
                                                                                                    Management Advisory Comments
                                                                                             For the Year Ended September 30, 2011
                                                             34                                    Report Number: 22-12-006-13-001
                                                                    Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                 Appendix A


Appendix A 

                        Acronyms and Abbreviations
ACUC     Advisory Council on Unemployment Compensation
APO      Accountable Property Officer
CIP      Construction-in-Process
DLMS     Department of Labor Manual Series
DOL      United States Department of Labor
DOLAR$   Department of Labor Accounting and Related Systems
EEOICB   Energy Employees’ Occupational Illness Compensation Benefits
ETA      Employment and Training Administration
FACTS    Federal Agencies Centralized Trial Balance System
FAM      Financial Audit Manual
FECA     Federal Employees Compensation Act
FISMA    Federal Information Security Management Act
FFMIA    Federal Financial Management Improvement Act of 1996
FMFIA    Federal Managers’ Financial Integrity Act of 1982
FPO      Federal Project Officer
FY       Fiscal Year
GAO      Government Accountability Office
GAAP     Generally Accepted Accounting Principles
GEMS     Grants e-Management System
HR       Human Resources
IFCS     Intragovernmental Fiduciary Confirmation System
iFECS    Integrated Federal Employees Compensation System
IT       Information Technology
JV       Journal Voucher
MAC      Management Advisory Comment
NCFMS    New Core Financial Management System
NFC      United States Department of Agriculture National Finance Center
OASAM    Office of the Assistant Secretary for Administration and Management
OCFO     Office of the Chief Financial Officer
OIG      Office of Inspector General
OJC      Office of Job Corps
OMB      Office of Management and Budget
OPM      Office of Personal Management
OWCP     Office of Workers’ Compensation Programs
PBC      Prepared-by-Client
PP&E     Property, Plant, and Equipment
SAD      Summary of Aggregated Deficiencies
SFFAS    Statement of Federal Financial Accounting Standards
SSA      Social Security Administration
U.S.     United States
VETS     Veterans’ Employment and Training Service


                                                           Management Advisory Comments
                                                    For the Year Ended September 30, 2011
                                    35                    Report Number: 22-12-006-13-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone: 1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor 

         200 Constitution Avenue, N.W. 

         Room S-5506              

         Washington, D.C. 20210 

